U.S. Department of Justice
Office of the Solicitor Genera!

Washington, D.C. 20530

November 15, 2019
Honorable Scott S. Harris
C!erk
Supreme Court of the United States
Washington, D.C. 20543
Re: Baldwin v. United States, No. 19-402
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
23, 2019. The response of the United States is now due, after one extension, on November 25,
2019. We respectful!y request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including December 9, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counse! for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0402
BALDWIN, HOWARD L., ET UX
USA

ANTHONY T. CASO
CHAPMAN UNIVERSITY FOWLER SCHOOL OF
LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU
ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-908-6202
ADITYA.DYNAR@GMAIL.COM
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
ROBERT W. KEASTER
CHAMBERLIN & KEATSER LLP
16000 VENTURA BOULEVARD
SUITE 301
ENCINO, CA 91436

RAYMOND J. LAJEUNESSE
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, [NC.
8001 BRADDOCK ROAD,
SUITE 600
SPRiNGFIELD , VA 22160
703-321-8510
RJL@NRTW.ORG
JOHN PAGLIARO
NEW ENGLAND LEGAL FOUNDATION
150 LiNCOLN STREET
BOSTON, MA 02111
617-695-3666
JOHNPAGLIARO@NELFONLINE.ORG
TIMOTHY SANDEFUR
GOLDWATER INSTITUTE
500 EAST CORONADO ROAD
PHOENIX, AZ 85004
602-462-5000
KS CHLOTT@GOLD WATERINSTITUTE. ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
JOHN J. \TECCHIONE
CAUSE OF ACTION iNSTITUTE
1875 EYE STREET, NW
SUITE 800
WASHINGTON, DC 20006
202-499-2415
JOHN.VECCHIONE@CAUSEOFACTION.ORG

LUKE ANTHONY WAKE
NFIB SMALL BUSINESS LEGAL CENTER
1201 F ST.,NW
#200
WASHINGTON, DC 20004
800-552-5342
LUKE.WAKE@NFJB.ORG

